               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Standardization of Mail Processing
       Equipment at Processing and
           Distribution Centers

                       Audit Report




                                              October 4, 2011

Report Number NO-AR-12-001
                                                                         October 4, 2011

                                                  Standardization of Mail Processing
                                            Equipment at Processing and Distribution
                                                                             Centers

                                                         Report Number NO-AR-12-001


IMPACT ON:
Standardization of selected mail              WHAT THE OIG RECOMMENDED:
processing equipment at major U.S.            We recommended the vice president,
Postal Service processing and                 Network Operations, periodically
distribution centers (P&DCs).                 compare equipment to mail volume at
                                              P&DCs and redeploy excess equipment
WHY THE OIG DID THE AUDIT:                    to those sites where equipment
We performed this self-initiated audit to     deficiencies exist and, when funds are
assess the level of standardization of        available, redeploy new equipment to
equipment at major mail processing            replace older equipment wherever it is
facilities and to identify potential          cost effective.
efficiency gains from standardizing the
equipment set deployed to each facility.      WHAT MANAGEMENT SAID:
                                              Management agreed with the
WHAT THE OIG FOUND:                           recommendations, stating the Postal
The Postal Service has a sufficient           Service consistently reviews and
number of machines available to               analyzes the capacity of equipment and
process the mail and has achieved             continues its effort to modernize its
considerable standardization of               equipment fleet. As part of recent
equipment at the facilities reviewed.         announcements of facility consolidation
While the Postal Service has managed          studies, management expects to
to reduce workhours and has introduced        dramatically reduce mail processing
initiatives to improve mail processes at      equipment to come in line with workload
the facilities, it has not always matched     needs and purge older equipment.
equipment needs to mail volume.
Consequently, opportunities for further       AUDITORS’ COMMENTS:
standardization exist at some facilities.     The U.S. Postal Service Office of
Additionally, reducing the number of          Inspector General considers
Delivery Bar Code Sorter Phase I              management’s comments responsive to
machines, which sort letter mail, and         the recommendations and corrective
redeploying newer machines could lead         actions should resolve the issues
to further standardization and reduce         identified in this report.
maintenance costs.
                                              Link to review the entire report
October 4, 2011

MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Standardization of Mail Processing
                           Equipment at Processing and Distribution Centers
                           (Report Number NO-AR-12-001)

This report presents the results of our audit of the Standardization of Mail Processing
Equipment at processing and distribution centers (Project Number 11XG041NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Frank Neri
    Luke T. Grossmann
    John P. Darnay
    Drew T. Aliperto
    Sylvester Black
    Jo Ann Feindt
    David C. Fields
    Richard P. Uluski
    Linda J. Welch
    Corporate Audit and Response Management
                                                 TABLE OF CONTENTS


Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Machine Deployment Matched to Mail Volume .................................................................. 2

Opportunities for Further Standardization .......................................................................... 5

DBCS Phase Upgrades ...................................................................................................... 7

Recommendations .............................................................................................................. 9

Management’s Comments .................................................................................................. 9

Evaluation of Management’s Comments .......................................................................... 10

Appendix A: Additional Information................................................................................... 11

   Background .................................................................................................................... 11

   Objectives, Scope, and Methodology ........................................................................... 13

   Prior Audit Coverage ..................................................................................................... 14

Appendix B: Management’s Comments ........................................................................... 15
Standardization of Mail Processing Equipment at                                                       NO-AR-12-001
 Processing and Distribution Centers


Introduction

This report presents the results of our audit of the standardization 1 of mail processing
equipment at processing and distribution centers (P&DCs) (Project Number
11XG041NO000). Our objectives were to assess the level of standardization of
equipment at major U.S. Postal Service P&DCs and to identify potential efficiency gains
from standardizing the equipment deployed to each facility. This is the first in a series of
self-initiated audits on standardization and addresses operational risk. See Appendix A
for additional information about this audit.

Mail processing is an integrated group of activities 2 required to sort and distribute mail
for dispatch and eventual delivery. Post Offices, stations, and br anches send outgoing
mail to P&DCs and processing and distribution facilities for processing and dispatch for
a designated service area. The Postal Service initiated Continuous Improvement or a
Lean Six Sigma 3 methodology in 2008 to reduce variations or standardize processes.
Standardization is defined as “all processes associated with the performance of a
service, which are performed within set guidelines.” This ensures the product has
consistent quality.

This report will focus on standardization of the Automated Flat Sorting Machine 100
(AFSM-100) and Delivery Bar Code Sorter (DBCS) machines, which process the
majority of letter and flat volumes. We sampled 22 Group 1 4 facilities whose combined
total pieces fed (TPF) 5 volume was 5.7 billion. 6 The TPF volume on the AFSM-100 and
DBCS machines at these facilities totaled 4.3 billion pieces (or 76 percent) of all mail
handled by the P&DCs in the sample.

Conclusion

The Postal Service has a sufficient number of flat and letter machines to process the
mail and has achieved considerable standardization of these machines at the facilities
reviewed. Overall, the Postal Service generally matched machine deployment to mail
volume, although opportunities for further standardization exist at some facilities. These
opportunities exist because of the continued decline in mail volume, which has dropped
by 20 percent since its peak of 213 billion pieces in FY 2006. Additionally, reducing the
number of older DBCS Phase I machines and redeploying newer machines in their
place could lead to increased standardization as well as reduced maintenance costs.
1
  The implementation of rules and specifications for common and repeated use, aimed at achieving optimum degree
of order or uniformity.
2
  Mail processing activities include culling, edging, stacking, facing, canceling, sorting, tying, pouching, and bundling.
3
  Continuous Improvement is the Postal Service’s plan to accomplish the business changes necessary to compete in
today’s marketplace and business environment. Lean management focuses on reducing waste and improving
process flows, while Lean Six Sigma concentrates on reducing variation or defects and improving quality.
4
  The U.S. Postal Service Office of Inspector General (OIG) stratified facilities that process mail into seven groups
ranked by mail volume outlined in the Breakthrough Productivity Initiative (BPI). Group 1 facilities process a minimum
of 1.3 billion first-handling pieces (FHP) based on fiscal year (FY) 2010 mail volume.
5
  The number of pieces inducted at the front of mechanization for automation equipment. This includes rejects,
reworks, and re-feeds.
6
  Mail volume processed during the period of May 1–31, 2011. December mail volume processed
December 1-31, 2010, was 6.7 billion during the peak mailing season.
                                                             1
Standardization of Mail Processing Equipment at                                                     NO-AR-12-001
 Processing and Distribution Centers



Machine Deployment Matched to Mail Volume

We found considerable standardization among AFSM-100 and DBCS machine
deployment when comparing the number of machines in the facilities to mail volume.
The correlation 7 between the number of AFSM-100 machines deployed and associated
mail volume processed in these machines is 89 percent. The correlation between the
number of DBCS machines and the mail volume processed in these machines is 93
percent. Such a high positive correlation indicates that management has been
successful in standardizing the equipment. See Charts 1 and 2.


           Chart 1 – Number of AFSM-100 Machines and Pieces Fed (Millions)
                                     (May 2011)




7
  Correlation is a measure of the relation between two or more variables. Correlation coefficients can range from
 -1.00 to +1.00. The value of -1.00 represents a perfect negative correlation, while a value of +1.00 represents a
perfect positive correlation. A value of 0.00 represents a lack of correlation.


                                                           2
Standardization of Mail Processing Equipment at                                                       NO-AR-12-001
 Processing and Distribution Centers


                Chart 2 – Number of DBCS Machines and Pieces Fed (Millions)
                                        (May 2011)




Further, analysis found the majority of equipment performed at comparable efficiency
levels. Specifically, when reviewing AFSM-100 machines, we found that their
throughput rates at 11 of the 22 facilities sampled fell within 10 percent of the average
group throughput 8 rate of 14,485 mailpieces per hour. Our analysis of the DBCS
machines found that 100 percent of the facilities sampled in Group 1 fell within
10 percent of the average throughput rate of 35,912 mailpieces per hour. When all sites
in the sample fall within 10 percent of the average throughput, it indicates the machines
are operating at comparable efficiency levels and that standardization exists. See
Charts 3 and 4.




8
    Throughput is the rate at which a machine processes mail usually designated in pieces per hour.


                                                           3
Standardization of Mail Processing Equipment at                               NO-AR-12-001
 Processing and Distribution Centers



                 Chart 3 – AFSM-100 Machine Throughput (Thousands)
                                     (May 2011)
                                           Average Throughput Rate 14,485




                    Chart 4 – DBCS Machine Throughput (Thousands)
                                      (May 2011)

                                             Average Throughput Rate 35,912




                                                  4
Standardization of Mail Processing Equipment at                                                NO-AR-12-001
 Processing and Distribution Centers



Opportunities for Further Standardization

We identified opportunities for further standardization by identifying those facilities
whose equipment set did not match mail volumes being processed at that facility. Of the
22 facilities, we found opportunities for further standardization for AFSM-100 machines
in nine and for DBCS machines in eight 9 (see Table 1).

For example, our analysis, which compares throughput to the number of machines in
the plants, indicates the Los Angeles P&DC and others had more machines than
actually needed to process letter volumes (see Chart 2), which shows the facilities as
outliers in the correlation analysis. Conversely, our analysis of AFSM-100 machines
shows the Dominick V. Daniels P&DC may not have enough machines to process all
flat volumes effectively, supported by the correlation analysis in Chart 1 showing that
facility as a significant outlier.

Table 1 summarizes our analysis of AFSM-100 machine and DBCS machine
deployment and variance between the number of machines needed and the machines
on hand.




9
 When considering the number of facilities that may not be standardized, we counted those that need to adjust the
number of DBCS by five or more. However, we recognize that the Postal Service requires sufficient capacity to
handle peak day mail processing volumes and, in some locations, there may be other factors that impact the number
of machines needed to meet mail processing goals. These factors may include the number of delivery points
serviced, service standards, machine configuration, and the level of overnight exchanges between plants.


                                                        5
   Standardization of Mail Processing Equipment at                                        NO-AR-12-001
    Processing and Distribution Centers



               Table 1 – Group 1 AFSM-100 Machine and DBCS Machine Breakdown
                                          (May 2011)
                             Actual Number of        Number of AFSM-100 Machines       Number of DBCS
P&DCs                           Machines                Needed and Variance      Machines Needed and Variance
                             AFSM        DBCS          AFSM       Under/(Over)    DBCS        Under/(Over)
Atlanta                         5          32            5             0            36             4

Baltimore                       3          20            2            (1)           20             0

Carol Stream                    4          29            4             0            33             4

Charlotte                       2          20            3             1            25             5

Chicago                         4          49            3            (1)           40            (9)

Nashville                       4          22            4             0            29             7

Cleveland                       4          30            4             0            33             3

Columbus                        5          30            5             0            33             3

Dallas                          4          39            3            (1)           35            (4)

Denver                          7          64            8             1            61            (3)

Dominick V. Daniels             5          34            7             2            43             9

Fort Worth                      5          39            6             1            38            (1)

Houston                         5          29            5             0            29             0

Indianapolis                    3          33            3             0            36             3

Jacksonville                    4          25            4             0            29             4

Kansas City                     6          44            5            (1)           45             1

Los Angeles                     6          74            6             0            58            (16)

Michigan Metroplex              3          49            3             0            42            (7)

Mid-Island                      4          16            4             0            20             4

Milwaukee                       5          28            6             1            33             5

Minneapolis                     5          48            5             0            40            (8)

ML Sellers                      4          41            4             0            38            (3)


   These opportunities exist because the Postal Service was not able to adjust to the
   unprecedented decline in mail volume, which has dropped from 213 billion pieces in
   FY 2006 to 171 billion pieces in FY 2010, a decline of 20 percent (see Chart 5). While
   the Postal Service has managed to reduce workhours by 27 percent since FY 2000 and
   introduced initiatives to improve the mail processes in the facilities, it has not always
   matched equipment needs to mail volume.




                                                         6
Standardization of Mail Processing Equipment at                         NO-AR-12-001
 Processing and Distribution Centers


                                 Chart 5 – Mail Volume (Billions)
                                       (FYs 2006 to 2010)




        Source: Postal Service Form 10-K Report



DBCS Phase Upgrades

There are seven phases of DBCS machines deployed nationwide. The Postal Service
introduced the DBCS Phase I machine in 1991, subsequently adding newer models with
Phases II through VII. We found selected Group 1 facilities also deployed all phases of
the DBCS machines (see Table 2).




                                                  7
Standardization of Mail Processing Equipment at                                                 NO-AR-12-001
 Processing and Distribution Centers



                  Table 2 – Group 1 DBCS Machine Deployment
                                   (May 2011)
                           DBCS Machine Deployment
 P&DCs                              Phase I      Phases II-V                                   Phases VI-VII
Minneapolis                           16              29                                            3
Carol Stream                          15              13                                            1
Dallas                                11              26                                            2
Denver                                10              48                                            6
Mid-Island                             9               7                                            0
Fort Worth                             8              31                                            0
Cleveland                              7              23                                            0
Charlotte                              2              17                                            1
Chicago                                2              25                                           22
Nashville                              2              16                                            3
Atlanta                                1              30                                            1
Baltimore                              0              20                                            0
Columbus                               0              27                                            3
Dominick V. Daniels                    0              33                                            1
Houston                                0              27                                            2
Indianapolis                           0              28                                            5
Jacksonville                           0              21                                            4
Kansas City                            0              40                                            4
Los Angeles                            0              70                                            3
Michigan Metroplex                     0              49                                            0
Milwaukee                              0              26                                            2
ML Sellers                             0              39                                            2
TOTAL                                 83             645                                           65

The average maintenance cost 10 is approximately $51,000 for the Phase I machines
and $44,000 for Phase II through V machines, 11 a difference of about $7,000 annually
per machine. Reducing the number of DBCS Phase I machines and redeploying
Phase II or above as indicated could lead to additional standardization and reduced
maintenance costs (see Chart 6).




10
   Costs per machine that include corrective maintenance, reactive maintenance, preventative maintenance, material
costs, and operational maintenance.
11
   These costs are for FY 2011, year-to-date, and are limited to Phase I, Model AC and Phase II through V, Model CJ
deployed nationwide.


                                                         8
Standardization of Mail Processing Equipment at                                              NO-AR-12-001
 Processing and Distribution Centers



           Chart 6 – Average Annual DBCS Maintenance Cost Per Machine 12
                           October 1, 2010, to July 25, 2011




Recommendations

We recommend the vice president, Network Operations:

1. Periodically compare equipment to mail volume at processing and distribution
   centers and redeploy excess mail processing equipment to those sites where
   equipment deficiencies exist.

2. As funds are available, redeploy newer mail processing equipment to replace older
   equipment whenever it is cost effective.

Management’s Comments

Management agreed with recommendation 1, stating the Postal Service consistently
reviews and analyzes the capacity of its equipment and has removed over 1,500 pieces
of equipment over the past 3 years and continues to identify areas for improvement. As
part of recent announcements of facility consolidation studies, the Postal Service
expects to reduce its mail processing equipment to be in line with workload needs.

Management agreed with recommendation 2, stating the Postal Service continues with
its efforts to modernize its equipment fleet, responsibly balancing the capital constraints
of the organization with the efficiencies that it could gain through state-of-the-art

12
 We calculated the average maintenance cost per machine by dividing total maintenance costs by the number of
machines deployed from October 1, 2010, to July 25, 2011.


                                                       9
Standardization of Mail Processing Equipment at                           NO-AR-12-001
 Processing and Distribution Centers


equipment investments. As a part of its recent announcements of facility consolidation
studies, the Postal Service will be able to reduce its older equipment. See Appendix B
for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report and corrective actions should resolve the issues identified in the report.




                                                  10
Standardization of Mail Processing Equipment at                                                    NO-AR-12-001
 Processing and Distribution Centers



                                 Appendix A: Additional Information

Background

The Postal Service is facing one of the most difficult challenges in its history. There has
been a continual decline in First-Class Mail® volume over the past decade. The recent
recession, continuing economic pressures, the use of electronic media, and additional
expenses associated with Retirement Health Benefit pre-funding have had a significant
adverse impact on operating expenses and mail volume. Net losses for the 9 months
ended June 30 amount to $5.7 billion in 2011 compared to $5.4 billion in 2010.

In testimony before Congress, 13 the U.S. Government Accountability Office (GAO)
stated that action is urgently needed to facilitate the Postal Service’s financial viability,
as it cannot support its current level of service and operations. The Postal Service
needs to become a leaner, more flexible organization so that it can operate more
efficiently, control costs, keep rates affordable, and meet customers’ changing needs.
The Postal Service needs to realign its operations, networks, and workforce need to
meet changes in mail usage and customer behavior, as the Postal Service now has
costly excess capacity.

The Postal Service introduced Continuous Improvement in 2008 to make the business
changes necessary to compete in today’s marketplace and business environment. The
Postal Service uses the Origin-Destination Information System-Revenue, Pieces, and
Weight system, a probability sampling system, to assist in estimating the Postal
Service’s revenue, volume flow, weight, and performance measurement. Management
uses the information gathered to estimate the volume of mail by category and class,
which aids the Postal Service in rate setting. Additionally, management uses this
information to plan for transportation and mail processing operations and to design and
develop mail processing facilities and equipment requirements.

Our analysis of equipment standardization focused on two machines, the AFSM-100
and the DBCS machine. The AFSM-100 machine is fully automated and processes flat
size 14 mail. The machine receives mail via automatic feeders, acquires images of script
and typed mail for video encoding, and processes mail using optical character
recognition technology (see Photograph 1).




13
   GAO testimony before the Subcommittee on Federal Workforce, U.S. Postal Service and Labor Policy, Committee
on Oversight and Government Reform, House of Representatives (Testimony Number GAO-11-428T, dated March 2,
2011).
14
   A mailpiece that exceeds one of the dimensions for letter-size mail (11-1/2 inches long, 6-1/8 inches high, 1/4 inch
thick) but that does not exceed the maximum dimension for the mail processing category (15 inches long, 12 inches
high, 3/4 inch thick).




                                                          11
Standardization of Mail Processing Equipment at                            NO-AR-12-001
 Processing and Distribution Centers



                               Photograph 1 – AFSM-100 Machine




        Source: Postal Service Blue Pages


The DBCS machine is an automated letter sorting machine used for letter-size mail
already barcoded either by mailers or by the Postal Service on other equipment. The
high-speed multilevel DBCS machine can sort mail in carrier walk sequence, eliminating
additional sorting at the delivery unit. The DBCS can also sort letter mail to carriers in
sector-segment sequence using a two-pass operation. Sector-segment sorting places
the mail in block face delivery sequence (see Photograph 2).

                                 Photograph 2 – DBCS Machine




          Source: Postal Service Blue Pages




                                                  12
Standardization of Mail Processing Equipment at                                                   NO-AR-12-001
 Processing and Distribution Centers


Objectives, Scope, and Methodology

Our objectives were to assess the level of standardization of equipment at major Postal
Service P&DCs and to identify potential efficiency gains from standardizing the
equipment set deployed to each facility.

We used computer-processed data from the Web End of Run (WebEOR) system. W e
pulled data from May 1 through 31, 2011, but did not test controls over these systems.
However, we checked the reasonableness of results by confirming our analysis and
results with management and multiple data sources.

To accomplish our objectives, we obtained the listing for the seven plant groups as
stratified by the OIG. 15 We judgmentally selected a sample of 50 percent of the facilities
from Group 1 as our sample. We selected our sample from Group 1 facilities because
they are the largest facilities and typically have more equipment than those facilities in
the other groups. We obtained the Machine Summary and the Machine Mapping reports
from WebEOR to determine equipment inventory, volume, and the DBCS machine
phases for our sample. We analyzed the inventory for each plant in the sample to
assess the level of standardization of equipment. We also analyzed the data to identify
potential efficiency gains from standardizing the equipment.

We conducted this performance audit from June through October 2011, in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our findings
and conclusions with management on September 8, 2011, and included their comments
where appropriate.

Title 39, U.S.C., Part 1, Chapter 4, § 403, states: “The Postal Service shall plan,
develop, promote, and provide adequate and efficient postal services at fair and
reasonable rates and fees.” It further states that; "It shall be the responsibility of the
Postal Service to maintain an efficient system of collection, sorting, and d elivery of the
mail nationwide." Further, the Postal Accountability and Enhancement Act, P.L. 109-
435, December 20, 2006, Title II, highlights ". . . the need for the Postal Service to
increase its efficiency and reduce its costs, including infrastructure costs, to help
maintain high quality, affordable postal services. . .” and Title 39, U.S.C., Part 1,
Chapter 1, § 101, states that the Postal Service: ". . . shall provide prompt, reliable, and


15
  We divided facilities that process mail into seven groups ranked by mail volume outlined in the BPI. The Postal
Service established the BPI to drive costs out of the organization while creating continuous improvement capability.
The BPI uses comparative monitoring and performance ranking in operating units across the country. Higher
performing units are sometimes used as models to identify best practices. Standard procedures are based on best
practices and training is developed to share performance expectations. Targets are set to drive performance toward
the highest levels.


                                                         13
Standardization of Mail Processing Equipment at                               NO-AR-12-001
 Processing and Distribution Centers


efficient services to patrons in all areas and shall render postal services to all
communities."

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objectives of this
audit.




                                                  14
Standardization of Mail Processing Equipment at                NO-AR-12-001
 Processing and Distribution Centers


                           Appendix B: Management’s Comments




                                                  15
Standardization of Mail Processing Equipment at        NO-AR-12-001
 Processing and Distribution Centers




                                                  16
